Keys Federal Credit Union
P.O. Box 1898
Key West, Florida 33041-1898
(305) 294-6622 or (800) 805-7535

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of 10-1-2013. You can contact us toll free at the number or address above to inquire if any changes occurred
since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage
Rate (APR) for
Purchases, Cash
Advances & Balance
Transfers

Visa Signature /
Visa Platinum Rewards

Visa Platinum

Visa Platinum
Secured

2.9% Introductory APR for six 2.9% Introductory APR for six 15.15%
months.

months.

This APR will

After that, your Standard APR

After that, your Standard APR will

vary with the

8.15%, 9.15%,
10.15%, 13.15% or
16.15%

be

10.15%,
11.15%, 12.15%,
15.15% or 18.00%

market based on

depending on your credit history.

depending on your credit history.

This APR will vary with the

This APR will vary with the market

market based on the Prime Rate.

based on the Prime Rate.

will be

Penalty APR and When
it Applies

the Prime Rate.

18%
This APR may be applied to your account if you make a payment that is late 60 days or
more.
How Long Will the Penalty APR Apply? If we increase your APRs due to a late payment,
we may keep them at this higher level on existing and new balances until you make six
consecutive on-time payments.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you interest on purchases if you pay your entire new purchase balance by the due date
each month. We will begin charging interest on cash advances and balance transfers on
the transaction date.

Minimum Interest
Charge

None

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

SEE NEXT PAGE for more important information about this account

9009 LASER DP FI16880 10-2013

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

page 1 of 2

FEES:
Fees to Open or Maintain
your Account:
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None

2% of the amount of each transfer (maximum: $75.00; minimum: $10.00)
2% of the amount of each cash advance (maximum: $999.00; minimum: $10.00)
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

If your payment is late, up to $25.00 for the first offense and up to $35.00 each if 2 or
more offenses occur within 6 months.
None
Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance” (including new purchases).
Loss of Introductory Rate: We may end your Introductory Rate and apply the Penalty APR disclosed above if you make
a late payment.

9009 LASER DP FI16880 10-2013

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

page 2 of 2

